<html>
<title> - NOMINATION</title>
<body><pre>[Senate Hearing 111-935]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-935
 
                               NOMINATION

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


       Available via the World Wide Web: http://www.fdsys.gpo.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-254                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7512051a35160006011d1019055b161a185b">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Kaufman, Hon. Edward E., U.S. Senator from Delaware, statement...     6
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Munter, Cameron, nominee to be Ambassador to the Islamic Republic 
  of Pakistan....................................................     6
    Prepared statement...........................................     9
    Responses to questions submitted for the record by Senator 
      Russell D. Feingold........................................    23

                                 (iii)

  


                               NOMINATION

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

Cameron Munter, of California, to be Ambassador to the Islamic 
            Republic of Pakistan
                              ----------                              

    The committee met, pursuant to notice, at 9:45 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr., presiding.
    Present: Senators Casey, Kaufman, Lugar, and Risch.

         OPENING STATEMENT OF HON. ROBERT P. CASEY JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. Good morning. The Committee on Foreign 
Relations hearing on this nomination will come to order.
    And we meet today to discuss the nomination of Cameron 
Munter to be the President's Ambassador to the Islamic Republic 
of Pakistan.
    Ambassador Munter, welcome. And I want to thank you for 
your service to the country in difficult assignments in both 
Serbia and, more recently, Iraq, among other places, which in 
both cases is good preparation for the assignment that you 
would undertake upon your confirmation.
    I would also like to extend a welcome--and we just had a 
moment to say hello to your parents. Your parents, Helen-Jeanne 
and Len, who have joined us here today. We thank you for being 
here.
    This hearing affords us an opportunity to discuss the 
critical importance of our relationship with Pakistan. It is an 
understatement to say that the people of Pakistan have suffered 
greatly in recent years as they confront the growing threat 
posed by Islamic extremism. Recent bombing attacks in Quetta 
and Lahore brought this message home in stark terms.
    I and, I know, so many Americans are appalled at the 
violence and the scale and the destruction of that violence 
seen in Pakistan in recent years. All of us, in one way or 
another, pray for the families of Pakistan who have made the 
ultimate sacrifice in this conflict, and I am confident that 
their loss will not be in vain.
    The Pakistani Taliban, Tehrik-e-Taliban, claimed 
responsibility for the recent attacks, a group that the United 
States has designated as a foreign terrorist organization. 
Faisal Shahzad, who attempted to set off a car bomb in Times 
Square last May, said he was trained by explosive experts in 
the so-called TTP. The TTP also threatens attacks against the 
United States and Europe. This is a common thread--or I should 
say there is a common thread to United States and Pakistani 
security, and we must do all we can together to confront these 
killers.
    Extremism is the common enemy of the United States and 
Pakistan, all too often manifested in the form of improvised 
explosive devices and their precursor components. These bombs 
have killed Pakistani troops and civilians, as well as scores 
of Americans in Afghanistan. It is the No. 1 killer of our 
troops in Afghanistan, the so-called IEDs.
    I have long sought to highlight this threat and support 
United States and international efforts to crack down on the 
proliferation of the precursor chemicals, the most notorious 
and most destructive being ammonium nitrate. The Joint 
Improvised Explosive Device Defeat Organization, known by that 
long acronym, JIEDDO, has led an effort to combat IEDs at every 
step in the process. The United States Immigration and Customs 
Enforcement Agency recently commenced Project Global Shield, 
which is an unprecedented multilateral law enforcement 
operation aimed at countering the illicit diversion and 
trafficking of these precursor chemicals.
    Pakistan has made efforts to contend with ammonium nitrate 
in large part because the threat has begun to impact security 
in Pakistan itself. Recent coordination between Pakistani 
civilian and military entities on the IED issue has been very 
positive. The government of Pakistan formed an interagency 
national counter-IED forum. We are also beginning to see 
efforts at the local level, such as small-scale bans and 
regulations in the district of Malakand.
    Ambassador Anne Patterson, someone that we have all come to 
know and greatly admire her work, she has led a remarkable 
effort to engage with the Pakistani Government on this issue. I 
hope that Pakistan expeditiously approves its draft legislation 
to better control explosive materials in the country and makes 
a concerted effort at enforcement. I also hope that we can work 
with the private sector to build understanding of the threat 
posed by IED precursors and encourage better self-regulation.
    We must exercise, in my judgment, extraordinary vigilance 
in stemming the unregulated flow of ammonium nitrate in this 
region because it directly affects the security of our troops. 
Pennsylvania--the State I represent, the Commonwealth of 
Pennsylvania--has lost 56 servicemembers in Afghanistan, many 
of whom were killed by IEDs.
    Implementing more robust seizure and interdiction measures 
is important, but we also must do more to dismantle terrorist 
and other criminal organizations involved in making IEDs. This 
will involve multilateral engagement, regulatory measures, 
training and technological efforts, building border control 
capacity, as well as other means.
    The people of Pakistan have suffered from the recent 
devastating floods as well, the worst natural disaster in the 
history of the country. To assist the people of Pakistan during 
this difficult time, the United States has provided more than 
$340 million to support immediate relief and recovery efforts. 
The United States has provided food, infrastructure support, 
and air support to transport goods and rescue those stranded by 
the floods.
    These devastating floods require a substantial 
international commitment of assistance. The United Nations has 
issued an appeal of $450 million, most of it remaining 
unfulfilled. Private contributions have slowed to a trickle. So 
I look forward, and I know many others look forward, to hearing 
from our nominee on the United States response to the floods 
and what we can be doing to have a more tangible impact in the 
lives of Pakistanis affected by this horrific tragedy, the 
tragedy of the flood.
    Recognizing these enormous challenges, Senator Kerry, our 
chairman, and our ranking member, Senator Lugar, have led a 
bipartisan effort to encourage a United States-Pakistani 
relationship that is based on more solid footing. And we know 
the legislation often by the names of those who led the fight 
and made sure it got passed--Senator Kerry, Senator Lugar, and, 
in the House, of course, Congressman Berman.
    The Enhanced Partnership with Pakistan Act, known more 
colloquially by the name of Kerry-Lugar-Berman, authorizes $7.5 
billion in nonmilitary assistance over 5 years. Through this 
investment by U.S. taxpayers, we seek to establish partnerships 
between our citizens in order to truly build a strong 
foundation of mutual trust. Development of durable Pakistani 
institutions and exchanges between teachers, businessmen and 
businesswomen, lawyers, doctors, engineers, and students will 
be the hallmark of a new relationship built on common values.
    The people of Pakistan do not want a future condemned by 
incessant violence. I believe our efforts will help to create 
an environment that successfully counters extremism.
    An essential element of putting our relationship on a more 
solid footing is how we communicate with the Pakistani people. 
A June 2010 Pew research survey found that only 17 percent of 
Pakistanis held a favorable view of the United States, an 
opinion that has held constant over the past 3 years. Fifty-
nine percent in that same survey describe the United States as 
an enemy. Our diplomats are contending with very difficult 
dynamics and high levels of mistrust in conducting public 
diplomacy.
    I believe we have made progress in furthering a strategic 
dialogue with the Pakistani Government, but what we really need 
is a strategic dialogue with the people of Pakistan. One that, 
in fact, communicates in Urdu. One that uses media that 
Pakistanis watch. And one that looks to amplify those moderate, 
progressive, and credible voices among Pakistan's diverse 
population that want a better relationship with the United 
States of America.
    There is perhaps some dismay--and that might be an 
understatement--among the American people for what they 
perceive as ingratitude from Pakistan. But we cannot expect 
anything different if the Pakistani people do not know the 
extent of our investment and partnership. We have got to talk 
about what we have done there in a more substantial way and in 
a more strategic way. I look forward to hearing our nominee's 
perspective on this issue and hope that we can work creatively 
to shift those public opinion numbers in the years ahead.
    Part of improving this relationship with the Pakistani 
people is maintaining our support for a strong civilian 
government, as well as democratic institutions. The durability 
of democratic institutions will be the long-term bulwark 
against extremism and allow the Pakistani people and its 
vibrant civil society to express its desires through peaceful 
democratic means. We have strongly indicated our long-term 
support for development through the Enhanced Partnership Act, 
and I look forward to hearing the thoughts of our nominee about 
how this vehicle can be used to improve the lives of Pakistanis 
and enhance the standing of the United States in the country.
    So, Mr. Ambassador, I once again want to thank you for 
being here today and for putting yourself forward for continued 
public service. Your service to our country is greatly 
appreciated, and we certainly thank you for the work you have 
done up to now to appear before us.
    And I would now like to turn to our ranking member, Senator 
Lugar, for any opening comments.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I thank you for your work with our chairman, Senator Kerry, 
to make this hearing possible. The importance of the continuity 
of having an Ambassador to Pakistan is very obvious, and the 
need for us to have this hearing and to move it in our business 
meeting and, hopefully, for the Senate to move rapidly during 
this time as we head toward recess is imperative. So I take the 
liberty of mentioning the timeliness of all of this to begin 
with and with congratulations to all who are trying to move 
ahead with the business of the Senate.
    But nevertheless, I would also say that American national 
security interests are directly linked, as you pointed out, Mr. 
Chairman, to Pakistan's political, military, economic, and 
social challenges.
    Because Pakistan represents a key regional and national 
security interest for the United States, in July 2008, then-
Senator Biden and I introduced the original Enhanced 
Partnership with Pakistan Act to broaden and strengthen the 
important relationship between the United States and Pakistan.
    American economic and military assistance for Pakistan 
enhances our mutual security, while helping to build a more 
economically and politically stable country. Economic 
assistance is as critical to security as strengthening the 
ability of the Pakistan military to counter terrorism, 
especially by improving the capacity for governance and 
economic growth in Pakistan.
    I have since had the pleasure to work with Senator Kerry 
and Congressman Berman and others to see this legislation 
enacted, with a 5-year authorization of $7.5 billion. I am 
pleased to continue to work with them, for example, in the 
introduction of the Pakistan-American Enterprise Fund. This 
bill was passed out of our Foreign Relations Committee earlier 
this week. It should leverage American and Pakistani ingenuity 
and experience in driving business expansion in Pakistan.
    In disbursing Kerry-Lugar funds, effectiveness through 
proper planning and implementation is more important than speed 
because the goal is sustainability and a long-term partnership. 
Initial implementation has proven uncertain, and resources 
should only follow those efforts that prove effective. 
Additional collaboration with Pakistani institutions is 
certainly necessary to assure progress.
    Rushing aid and accelerating programming could inhibit our 
goals of helping Pakistan achieve a more stable and productive 
economic situation. The country team should avoid spending for 
the sake of spending but make clear to the Pakistani people the 
planning and organization that is going on with the government 
at the federal and provincial levels. This is not a one-sided 
effort. Pakistan must also initiate and enable cooperation 
between our two governments to maximize the impact of these 
resources, as well as create a sustainable environment for 
economic development.
    As Secretary Clinton stated at the United Nations this 
week, and I quote the Secretary, ``As we take these steps, we 
will follow Pakistan's lead. We look to the Pakistani 
Government to help shape a strategy that reflects the needs of 
the Pakistani people. And we are encouraged by the efforts that 
Pakistan itself is making to institute the economic and tax 
reforms that will help pave the way toward self-sufficiency. 
The international community will support Pakistan's efforts, 
yet we know it has to be a partnership.''
    While Pakistan's own institutions are primarily responsible 
for providing rescue and relief during the recent floods, the 
United States has not wavered in its commitment to help them 
respond to the crisis through a commitment of over $345 
million. This includes the rescue of 15,000 people and the 
delivery of helicopters and boats, as well as hundreds of 
thousands of meals for the displaced and the isolated. In 
addition to Government action, individual Americans have also 
given generously through charitable organizations.
    The floods have not changed the need for the kind of long-
term investment in Pakistan envisioned in Kerry-Lugar-Berman. 
Humanitarian relief from other sources in response to the 
floods is appropriate and should be used to the maximum extent 
possible. Such funding is typically more responsive and 
properly suited to emergency situations. Due to the crisis 
environment, however, humanitarian assistance resources are 
also not as easily monitored.
    Some Kerry-Lugar-Berman resources may be appropriate for 
recovery from the floods, including early recovery, when there 
is a well thought-out strategy that is consistent with the 
goals and purposes of the legislation. In such cases, a shift 
in programming should be considered and the appropriate 
committees notified. Staff has made clear that transparency and 
accountability for Kerry-Lugar-Berman funding remains an 
elemental part of the assistance package.
    We welcome the President's nominee for Pakistan here today 
to replace our able and effective Ambassador, Anne Patterson, 
and we look forward very much to his testimony.
    And I thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Lugar.
    And again, we want to commend the great work you have done 
on Kerry-Lugar-Berman to get that aid through--that package 
through the Foreign Relations Committee and then through the 
Congress. We are grateful for that, and we want to monitor very 
closely how that legislation gets implemented.
    We are joined by Senator Kaufman. I wanted to recognize him 
for opening comments.

              STATEMENT OF HON. EDWARD E. KAUFMAN,
                   U.S. SENATOR FROM DELAWARE

    Senator Kaufman. Thank you very much.
    And first, I want to thank you for your service, and 
frankly, even more, thank your family for your service. I know 
how tough it is on a family to go through this.
    And obviously, taking on Pakistan, as you listened to my 
two wonderful colleagues--Chairman Casey and Ranking Member 
Lugar--this is a very, very, very, very hard assignment that 
you have here. But as I told you when you came by the office, 
my mother used to tell me that nothing in life that is 
worthwhile is easy. And I might change that to anything that is 
very, very, very worthwhile is very, very, very hard.
    So I really want to thank you for what you are doing. I 
think you are the right person for the right time. Pakistan is 
incredibly important, again, as the chairman and ranking member 
said.
    So I want to thank you, and thank you for your service. And 
I am looking forward to your service in Pakistan.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Casey. Thanks, Senator Kaufman.
    Mr. Ambassador, you have about 7 minutes.

STATEMENT OF CAMERON MUNTER, OF CALIFORNIA, TO BE AMBASSADOR TO 
                THE ISLAMIC REPUBLIC OF PAKISTAN

    Ambassador Munter. Thank you very much.
    Senator Casey, Senator Lugar, Senator Kaufman, it is a 
privilege and an honor to appear before you this morning, 
seeking your consent to my candidacy as America's next 
Ambassador to Pakistan.
    I have many to thank for this opportunity--the President 
and Secretary Clinton for their confidence in my abilities, 
Senator Casey for making this hearing possible on short notice, 
Ambassador Holbrooke for his support and guidance.
    Thanks also to my parents, who are here--Helen-Jeanne and 
Len Munter, here today from California, whose wisdom has guided 
me throughout my life.
    My wife, Marilyn, is not here today, but she has been 
strong and consistent in her love and support for the last 
three decades of our marriage. And if I am confirmed, Marilyn 
will join me in Islamabad to end more than 2 years we have 
spent apart during my recent service in Baghdad and, before 
that, following the American evacuation of dependents from 
Belgrade after the attack on the embassy there.
    Success will come in Pakistan by building confidence in and 
working with a strong civilian government. It will be the 
result of patient efforts on our part to define and address 
areas of interest that America and Pakistan share--our 
counterinsurgency against violent extremists, Pakistan's 
ability to achieve its full economic potential, our commitment 
to social development. We can only achieve this common success 
with a strong partner in Pakistan's democratically elected 
civilian government.
    The Enhanced Partnership Act with Pakistan of 2009, which 
we refer to as Kerry-Lugar-Berman, has demonstrated that 
Congress supports this approach, providing generously for our 
efforts to build a long-term partnership between the people of 
the United States and Pakistan. But the floodwaters that struck 
Pakistan have made the challenge more difficult.
    As Senator Kerry pointed out after his recent trip, the 
devastation created by the floods is gut-wrenching. Seventeen 
hundred Pakistanis have died. Twenty million have been 
affected. America can be proud that it was the ``first and the 
most'' in responding to this crisis, providing, as you noted, 
more than $345 million with relief and recovery efforts so far, 
not to mention 50 million dollars' worth of in-kind assistance 
from the U.S. military, including evacuating more than 15,000 
people, delivering more than 7 million pounds of relief 
supplies.
    International partners and the U.S. private sector have 
also given generously. We have provided relief and will 
continue to assist in the longer term recovery and 
reconstruction because it is the right thing to do. Pakistan 
needs our support to overcome this terrible tragedy, and the 
United States will be a source of support in the years to come.
    This last key point is key. We are in this for the long 
haul, as all of you have emphasized. Not only will we supply 
immediate humanitarian help, we will help Pakistani 
institutions so they will serve Pakistan well in the years to 
come. We will do all we can to increase transparency of the 
relief and recovery effort.
    The Pakistani Government can serve its people in a time of 
need now, tomorrow, and the day after. And we have shown we 
will be there to help. We and the international community 
cannot do this alone, however. Pakistan must raise its revenues 
internally to pay for the needs of its people.
    The task ahead requires our firm commitment, and that is 
why even before the floods struck in July, the administration 
created and began to implement an ambitious agenda under the 
strategic dialogue of Pakistan and the United States. The 
dialogue gets to the heart of our mutual interests by engaging 
the leadership of our countries in key areas, such as health, 
agriculture, and economic reform, which, in the aftermath of 
the floods, will be priorities for us all.
    In addition, the strategic dialogue addresses energy 
issues, defense, and counterterrorism cooperation, 
nonproliferation, water management, and more. The strategic 
dialogue is comprehensive and provides the framework for a 
lasting relationship.
    And of course, this partnership has a crucial security 
element. Pakistan's security is vital for us and for the 
region. A secure and stable Pakistan will strengthen security 
globally.
    In 2009, extremists had seized the Swat Valley just 100 
miles from Islamabad. Now the Pakistani military is actively 
engaged and more effectively fighting extremists. This trend 
must be sustained. Terrorists are still inflicting a terrible 
toll on Pakistanis, still undermining our efforts in 
Afghanistan, and still planning attacks on the American people 
and American cities. Simply put, more must be done.
    We must help Pakistan fight the terrorist elements that 
threaten its own safety and all of our long-term security. We 
will work closely with our Pakistani friends to ensure the 
success of democracy and prosperity in neighboring Afghanistan. 
We will work closely with our Pakistani friends to build 
confidence in our commitment to nonproliferation.
    If confirmed, I pledge to lead a unified team of Americans 
from across the United States Government to address difficult 
security challenges and build a lasting relationship with 
Pakistani counterparts based on honesty and mutual respect. We 
will not always agree with Pakistan on every priority, but we 
will work through our differences as partners, with our eyes on 
a vision we share of a strong, independent Pakistan at peace 
with its neighbors and free of terrorism.
    The administration and the Congress have thus put forth our 
vision of Pakistan in the years to come--Pakistan as a friend 
of democracy, Pakistan as a partner in regional security. This 
vision requires hard work because our policy initiatives must 
rest on a strong and confident social and economic base in 
Pakistan, and that base is not as strong and or as confident as 
either country would like.
    We must foster educational and employment opportunities for 
Pakistan's young people, to explore markets for Pakistan's 
products to enhance its self-reliance and prosperity. Without a 
strong civil society, economic growth and reform cannot be 
sustained. We will continue our robust assistance to the 
Pakistani Government and to the Pakistani NGO sector to 
strengthen public support for strong democratic institutions.
    These institutions defend the rule of law, protect human 
rights and the rights of ethnic and religious minorities. They 
empower women. In short, they make a country great. We will 
support these institutions with determination, and we will do 
so humbly as well, with respect for the impressive traditions 
of Pakistan's people, so that the universal values of equality 
and justice are pursued as the people of Pakistan would have 
them pursued.
    Mr. Chairman, members of the committee, these are the key 
elements of the agenda for the United States in Pakistan--our 
common fight against terrorism, our common commitment to the 
stability of the region, and our common task in building the 
civil institutions in Pakistan to recover and rebuild from the 
floods and, by doing so, strengthen those institutions for many 
years to come.
    To do these and many other tasks, the U.S. mission to 
Pakistan must grow, and I thank Congress for recognizing the 
need for greater resources, especially in these tough times.
    If confirmed, I pledge to do my utmost to ensure these 
resources are applied effectively and transparently. And as you 
have mentioned, public diplomacy is key. Let us be honest about 
this. We need to overcome historical skepticism among 
Pakistanis about American motives in South Asia, and this will 
require ceaseless engagement, energy, and outreach. It will 
require wisdom and the ability to listen, and our excellent 
press office in Islamabad must do even more. Our cultural 
exchange programs, including the world's largest Fulbright 
program, must be constant, confident, and, above all, focused 
on our goals.
    Because if we are to say, as I do, that Pakistanis and 
Americans are natural friends and natural partners, we must 
work together, and we must talk openly. We are both diverse 
cultures. We are both open and generous peoples. And we are 
young countries, priding ourselves on the traditions we embody.
    This diversity, this generosity, and this pride is tested 
at times like these, as Pakistan and its friend America face 
great challenges. But it is from great challenges that even 
greater friendships can be forged.
    Thank you for your comments. Thank you for your support, 
and thank you for your attention to my comments. I welcome the 
opportunity to answer any of your questions.
    [The prepared statement of Ambassador Munter follows:]

       Prepared Statement of Ambassador-Designate Cameron Munter

    Senator Casey, Ranking Member Lugar, committee members, it's a 
privilege and an honor to appear before you this morning, seeking your 
consent to my candidacy as America's next Ambassador to Pakistan. I 
have many to thank for this opportunity: the President and Secretary 
Clinton for their confidence in my abilities; Senator Casey for making 
this hearing possible on such short notice and thus emphasizing our 
common commitment to American interests in and relations with Pakistan; 
Ambassador Holbrooke for his support and guidance. I also express my 
thanks in an even more profound way to my parents, Helen-Jeanne and Len 
Munter, who have joined us today from California, whose wisdom has 
guided me all my life. My wife Marilyn is not here today, but she has 
been strong and consistent in her love and support during three decades 
of marriage; if I am confirmed, Marilyn will join me in Islamabad to 
end more than 2 years of separation, during my recent service in 
Baghdad and before that, following the evacuation of American 
dependents from Belgrade after the attack on our Embassy there. And 
thanks also to my children, Dan and Anna, whose lives have also been 
shaped by the challenges of a Foreign Service career.
    I'm well aware that the job of American Ambassador in Pakistan is 
extraordinarily difficult, and I hope that the challenging Foreign 
Service career to which I alluded has prepared me well for it, should I 
be confirmed. In Baghdad, I ran the day-to-day operations of the 
largest embassy in the world in wartime, and am most proud of my 
contribution to interagency cooperation and especially to strong civil-
military relations during a pivotal year in Iraq. In Belgrade, I 
tackled the issues of Serbia's post-Kosovo status and aspirations, kept 
my people safe, and engaged energetically in diplomacy, public and 
private, to improve our standing and interests in the Balkans. 
Throughout my career I have contributed to U.S. goals in countries in 
transition to prosperity and democracy. Our Pakistani friends are 
sophisticated and experienced, and they deserve our unstinting respect 
and our unfailing honesty as we face daunting problems together; I hope 
that my experience presages a cooperation that rests on both idealism 
and realism.
    Success will come in Pakistan by building confidence in, and with, 
a strong civilian government. It will be the result of patient efforts 
on our part to define and address areas of interest that America and 
Pakistan share: our counterinsurgency against violent extremists who 
attack Pakistan's civilian population and security forces, as well as 
innocents in the region and around the world; our ability to help 
Pakistanis realize the full economic potential of their large and 
talented nation, so that its prosperity improves the welfare of its 
people and helps build a stable peace in the region; our commitment to 
social development so that our cultural affinities can flourish. We can 
only achieve this common success with a strong partner in Pakistan's 
democratically elected civilian government. The Enhanced Partnership 
with Pakistan Act of 2009, also known as the Kerry-Lugar-Berman bill, 
has demonstrated that Congress and indeed, the American people, are 
giving equally strong backing to this approach, providing generously 
for our efforts to build a long-term partnership between the people of 
the United States and Pakistan.
    But the floodwaters that struck Pakistan just weeks ago, and are 
only subsiding now, have made the challenges much more difficult. As 
Senator Kerry pointed out after his recent trip to view the damage 
wrought by the flooding, the devastation created by the floods is gut-
wrenching. Some 1,700 Pakistanis have died, and 20 million have been 
affected; there is an immediate need for shelter, food, medicine, and 
there will be a long-term challenge to rebuild Pakistan's 
infrastructure. America can be proud that it has been the ``first with 
the most'' in responding to the crisis, providing nearly $345 million 
dollars to assist with relief and recovery efforts, not to mention 
nearly 50 million dollars' worth of in-kind assistance from the U.S. 
military to include halal meals, temporary bridges, and air support for 
rescue and transport, evacuating more than 15,000 people and delivering 
7 million pounds of relief supplies. We have worked closely with 
international partners, and the U.S. private sector has also given 
generously. We have provided relief, and will continue to assist with 
the longer term recovery and reconstruction, because it's the right 
thing to do. Pakistan needs our support to overcome this terrible 
tragedy--and the United States will be a source of support in the years 
to come.
    This last is a key point I wish to stress: we are in this for the 
long haul. Not only will we supply immediate humanitarian help. We will 
do all we can to help Pakistani institutions as they deal with this 
challenge, knowing that they will serve Pakistan well for years to 
come. We will do all we can to increase transparency of the relief and 
recovery effort because this transparency is in the long-term interest 
of the Pakistani people, donors from abroad, and the businesses that 
ultimately must support a more stable and secure Pakistan. Now is the 
time that the Pakistani Government can serve its people in a time of 
need: now and tomorrow and the day after, we have shown that we will be 
there to help.
    This will require an even closer relation to the people of 
Pakistan. That is why, even before the floods struck in late July, the 
administration had created and begun to implement an ambitious agenda 
under the Strategic Dialogue between Pakistan and the United States. 
The Strategic Dialogue gets to the heart of our mutual interests by 
engaging top leadership of both countries in key areas such as health, 
agriculture, and economic reform, which, in the aftermath of the 
floods, will be top priorities for us all. In addition, the Strategic 
Dialogue addresses energy issues, defense and counterterrorism 
cooperation, nonproliferation, and water management, to name just a few 
areas. The Strategic Dialogue is comprehensive, and creates an 
effective working environment to engage on these and other key issues 
in coming years. It is providing the framework for a lasting 
partnership.
    Of course this partnership has a crucial security element. 
Pakistan's security is vital for us and for the region, and a secure 
and stable Pakistan will strengthen security globally. In 2009, 
extremists had seized the Swat Valley just 100 miles from Islamabad. 
Now the Pakistani military is actively engaged and more effectively 
fighting such extremists. This progress must be sustained--terrorists 
are still inflicting a terrible toll on Pakistanis, are still able to 
undermine our efforts in Afghanistan, and are planning attacks on 
American people and American cities. If confirmed, I will make sure we 
are doing all we can to encourage and enable Pakistan to continue and 
expand its efforts against militants.
    We must help Pakistan fight the terrorist elements that threaten 
its own safety and all of our long-term security. It is appropriate 
that we work closely with our Pakistani friends to ensure the success 
of democracy and prosperity in neighboring Afghanistan. It is 
appropriate that we work closely with our Pakistani friends to build 
confidence in our commitment to nonproliferation. On the American side, 
this will be a true expression of our unity of purpose, as the civilian 
and military personnel serving in Pakistan pull together to give clear 
and purposeful help to our hosts. If confirmed, I pledge to lead a 
unified team of Americans from across the U.S. Government to address 
these difficult security challenges as it builds a lasting relationship 
with Pakistani counterparts based on honesty and mutual respect. We 
will not always agree with Pakistan on every priority, but we will work 
through our differences as partners, with our eyes on a vision we can 
share of a strong, independent Pakistan at peace with its neighbors and 
free from terrorism.
    The administration and the Congress have thus put forth our vision 
of Pakistan in the years to come: Pakistan as a friend of democracy; 
Pakistan as a partner in regional security. This vision requires hard 
work, because our policy initiatives must rest upon a strong and 
confident social and economic base in Pakistan; and that base is not 
yet as strong and confident as either country would like. So we must 
help foster educational and employment opportunities for Pakistan's 
large and growing population of young people, and the development of 
markets for Pakistan's products to enhance its self-reliance and 
prosperity. Without a strong civil society, economic growth and reform 
cannot be sustained, so we will continue our robust assistance to the 
Pakistani Government and to the Pakistani NGO sector to strengthen 
public support for strong democratic institutions. These institutions 
defend the rule of law, protect human rights and the rights of 
religious and ethnic minorities, and empower women--in short, they make 
a country great. Pakistan has a very vibrant and strong civil society 
that fights for the well-being of the Pakistani people. We will support 
such institutions with determination, and we will do so humbly as well, 
with respect for the impressive traditions of Pakistan's people, so 
that the universal values of equality and justice are pursued as the 
people of Pakistan would have them pursued.
    Mr. Chairman, members of the committee, these are the key elements 
of the agenda of the United States in Pakistan: Our common fight 
against terrorism; our common commitment to stability in the region; 
our common task of building civil institutions in Pakistan to recover 
and rebuild from the floods and by doing so, strengthen those 
institutions for years to come. To do these and many other tasks, the 
U.S. Mission to Pakistan will increase its staffing, and I thank the 
Congress for recognizing the need for greater resources, especially in 
these very tough times. If confirmed, I pledge to do my utmost to 
ensure that these resources are applied effectively and transparently; 
that Americans serving in Pakistan, from AID or the military, consuls 
to analysts, will all be part of a unified team providing a clear 
message. Effective communication with the people of Pakistan, Pakistani 
institutions, and indeed the people back home, is not just the task of 
State Department officials or ambassadors, but rather, it is the task 
of everyone on the team. Let's be honest about this: we need to 
overcome historical skepticism among Pakistanis about American motives 
in South Asia, and this will require ceaseless engagement, energy, and 
outreach; it will also require wisdom and the ability to listen. Our 
excellent press office in Islamabad must do even more, our cultural 
exchange programs, including the world's largest Fulbright scholar 
exchange, must be constant, confident, and most of all, focused on the 
goals we seek to achieve.
    Because if we are to say, as I do, that Pakistanis and Americans 
are natural friends and natural partners, we must back our words with 
deeds. We are both diverse cultures; we are both open and generous 
peoples; we are both young countries priding ourselves on traditions we 
embody. This diversity, this generosity, this pride is tested at times 
like these, as Pakistan and its friend America face great challenges. 
But it is from great challenges that even greater friendships are 
forged.
    Thank you for your commitment to the task ahead, and thank you for 
your attention to my comments. I welcome the opportunity to take your 
questions.

    Senator Casey. Thank you very much.
    And you may have set a record by staying just a few minutes 
over the time limit. That is--usually, we have folks that go 
minutes over, and we have to figure out a way to get them back 
and within their time. We are grateful for that.
    I wanted to start with this question, and it is a question 
that you and I spoke about when you visited my office. And I 
know you have been deluged with this same question or a related 
set of concerns throughout this process of preparing for your 
nomination hearing.
    And it is this question of communication. That is one way 
to describe it, and kind of an image problem in terms of how 
both sides--the people of both countries view each other. I 
cited those polling numbers. I hate to read those because they 
are not encouraging. But it is important to start from some 
factual basis. That as a people, we are not very popular in 
Pakistan.
    And maybe they differentiate between the U.S. Government 
and the people of the United States. I hope they do. That 
always helps. But I think we also have on this side of the 
discussion a lot of Americans who see Congress moving forward 
with Kerry-Lugar-Berman and providing $7.5 billion of taxpayer 
money, and they expect to have some measure of gratitude 
extended.
    So there is a good bit of distrust or frustration or 
however you want to describe it on both sides of this. What do 
we do about that? What do you think has worked in the past to 
be effective in having a better communication strategy? And 
what would you do, upon confirmation, to make sure that we get 
that--get a better strategy in place to communicate better?
    Because it is vital. We can't have the kind of dialogue, 
strategic dialogue, and get the results from that unless we 
have better understanding and more mutual trust, which can only 
come with a lot of engagement.
    Ambassador Munter. Senator, that is a key issue, and it is 
at the core of what I hope to achieve, if confirmed and am able 
to go out to post. The ground that has been laid by Kerry-
Lugar-Berman and by our other efforts has changed, in a sense, 
the opportunity for us inasmuch as we know there is a good 
story to tell.
    And the story to tell is that which you have and your 
colleagues have emphasized, which is at one of the cores of the 
narratives in Pakistan about America's staying power and long-
term commitment. The fact that you have authorized $1.5 billion 
not just now, but over the next 5 years, and that this is seen 
as something that will lead to even closer ties in business, in 
culture, et cetera, I think is one of the substantive things 
that we can then communicate.
    So, to begin with, I think what you have allowed us is to 
have the proper message, and now the mechanisms of how we deal 
with that message and the mechanisms of how we work with the 
Pakistanis to communicate are things we must work on very 
carefully.
    I propose, should I be confirmed, to take a team out to the 
Embassy that would mirror what has happened at some of our 
other posts where we go beyond the excellent work that our 
traditional public affairs officers have done to a broader, 
integrated strategic messaging program.
    And this means that everyone, not just the Ambassador or 
the public affairs officer, everyone is an Ambassador. Everyone 
is dealing with the public, from our military to our consuls, 
to our people at our consulates in Lahore and Karachi. In other 
words, making sure that there is a broad effort to communicate 
a set of messages that we are not only aimed at having them, in 
a kind of a crude sense, to appreciate us, but to understand us 
better.
    To do that, I think we have to do better at coming up with 
less aggregate data, these numbers that you and I have read 
about the 17 percent or, conversely, the 64 percent of the 
people in this country who would like to have a better 
relationship with us. I think we need to do better to 
understand--to break down, to understand what are the 
differences. What do different elements of the society--youth, 
different ethnic groups, women, different political 
constituencies--what are their priorities?
    Because we may have made the mistake in the past of having 
messages that were, for lack of a better term, one-size-fits-
all. A press release from the embassy that talks about 
something that we are doing. It is a very good thing that we 
are doing, but somehow it doesn't resonate with certain groups 
in the country.
    This takes a little homework from us--not that we don't 
know these people, but we have to have a dialogue with 
different groups in a very diverse country to make sure that, 
as you have mentioned, the media that we use are the correct 
media. Just to focus on the print media is important, but not 
sufficient. Many people get their information in this country 
from radio.
    So that we would have to understand our audience better, 
have a greater dialogue on what the narrative that they use and 
their understanding of what we are doing is clear, that we keep 
very good track of all of the things that we are doing under 
the assistance and the engagement that you have allowed.
    This allows us to deal with the American public in a more 
coherent way. That is to say that we understand there is not a 
Pakistan. There are many Pakistanis. There are many interest 
groups there. We are engaging with all of them, thanks to the 
resources you have given us, and that this rather complex 
picture breaks down the stereotype that there are the 
Pakistanis who have an opinion, but rather there is a diverse 
and very--a potentially very powerful and successful country 
with which we can engage on a more nuanced level.
    So I can only repeat that, if confirmed, I plan to make 
this a top priority to bring resources to bear, both so that we 
can learn more, because public diplomacy is about listening as 
well as talking, and that we can use that knowledge, both with 
these various constituencies in Pakistan and with the American 
public as a whole.
    Senator Casey. Let me just say by way of a comment, that I 
know that in the work that Anne Patterson has done and the 
State Department itself, frankly, going back to over two 
administrations, I saw evidence of that when I was there.
    I made two visits the last couple of years, in both 
instances spending some time in Islamabad getting the briefings 
that members of Congress get. But also in both Islamabad and in 
Karachi, another major city that I visited, in both places, in 
addition to the usual briefings, Ambassador Patterson and 
others made it possible for us to interact with civil society, 
business people and public officials and others within 
Pakistani society.
    So I think there have been strenuous efforts made, but it 
is a particularly difficult situation. And just as our 
taxpayers and folks here in Washington do get frustrated when 
we think there is not enough gratitude, on the Pakistani side, 
they say to us we appreciate your help, but you guys have been 
short-term friends. I mean, I am encapsulating a larger 
argument.
    So the word that jumped off the page in your statement were 
two words, ``long haul.'' That we want to establish a 
relationship that will be enduring. It won't be short term and 
tactical and transactional. It will be of long duration. And it 
will be, in fact, strategic--not just strategic in a military 
sense, but in a sense of building a stronger relationship.
    So I think the most important thing that we would look for, 
if you are confirmed--and I think you will be--once you get 
your feet on the ground and you are up and running, so to 
speak, if you could provide some way of reporting back to this 
committee and the Congress about not just general progress on 
this question, but even outlining a strategy that you can then 
give us feedback on.
    So I know that we could spend even more time on that. But I 
wanted to move to a second issue, and we may not get enough 
time to fully develop it. But it is this whole issue of IEDs 
and the ammonium nitrate that goes into the IEDs. It is a 
horrific problem for our troops.
    And those who follow this know that it isn't simply a 
question of ammonium nitrate flowing into Afghanistan to be 
used for IEDs to kill our troops. But, frankly, that is a lot 
of it or most of it. There might be other places where it is--
other sources of it. But for whatever reason, not nearly enough 
progress has been made on convincing the Pakistani government 
to not only legislate--that is critically important--but 
enforce and build a strategy to prevent the flow of this into 
the country, which is killing our troops.
    And even though it is outlawed in Afghanistan, we know we 
need more of an effort by the Pakistanis. This is a problem 
that everyone is aware of and working on, starting with the 
President, his administration. Secretary Clinton has worked on 
it. General Petraeus is aware of it. I have spoken to him about 
it--General Jones. I mean, everyone who has anything to do with 
our national security is working on this. But we haven't made 
nearly enough progress.
    What is your sense of that in terms of what you can do 
specifically, as Ambassador, to move the ball down the field on 
preventing the inflow, for lack of a more technical word, of 
ammonium nitrate into Afghanistan that finds its way into IEDs?
    Ambassador Munter. It is a key issue. And it is one that 
illustrates--and I will be frank--how difficult this job is 
going to be and how our progress will be measured in increments 
rather than, I imagine, than breakthroughs. Nonetheless, the 
fact that we are getting incremental progress is a good thing. 
And it will be across the board.
    You mentioned our international efforts that we will keep 
up. It will be primarily--that would be from the State 
Department through Global Shield to make sure there are 
international regiments to regulate the transfer of ammonium 
nitrate. We also will be working as part of the assistance 
program that we supply to border guards--we have already begun 
this--to train them to be able to be more effective in keeping 
this ammonium nitrate from crossing borders.
    And as you had hinted earlier, this is not just a question 
of skills. It has to be a question of motivation. We have to 
work with these people to understand these are not just 
explosives that kill Americans. These are explosives that kill 
Pakistanis. These are explosives that kill people throughout 
the region. It is a larger question than ours. It is a 
partnership issue. I think we can demonstrate that.
    As you mentioned, our engagement with private sector is 
very important. Inasmuch as the working with Honeywell, for 
example, about ways in which to identify or to at least make 
the product less explosive and things of that sort, if we can 
work with the producers as partners to make sure that we don't 
have--that we lessen the danger of these products. And 
similarly, the producers in-country to make sure that we are 
working with them in whatever way we can to oversee, to 
control, to keep track of the ammonium nitrate.
    So that, in other words, it is not something that I see is 
a quick fix. And it is certainly what you mentioned. This is 
going to take sustained work throughout that area in which we 
have--hope to have research. It will be a question every time I 
talk to the legislators. It will be a question what--how are 
they doing on this legislation.
    When we are blessed with your visits, I think legislators 
hearing from legislators makes a big difference. And that is 
why we welcome your engagement not only here in Washington, but 
at post as well. So that they hear not only that we are asking 
something. They understand what a threat it is to them and how 
in a broad way we can continue to address this issue.
    But it is such an illustration, again, of how we are going 
to make--we are going to grind out the yardage on this one. We 
will keep doing it, and I think it is going to take us a long 
time. But nothing could be more important.
    Senator Casey. Thank you. I know I am over time.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Ambassador, my first set of questions are with regard to 
accountability for United States assistance. One of the 
hallmarks of the Kerry-Lugar-Berman Act was that we stressed 
accountability. And we stressed it because it is key to ensure 
annual funding. We are going to have to appropriate money each 
year, even though we have a 5-year authorization commitment.
    And we can ill afford to continue to read reports of 
inadequate monitoring and evaluation controls, such as the June 
2010 inspector general report for the 2009 program, which said 
that it could ``not provide reasonable assurance that the $44 
million in cash transfer funds had actually reached 140,000 
displaced families,'' as intended.
    While there are acknowledged challenges to delivering 
assistance, there must be adequate efforts to ensure its proper 
use. Staff visits earlier this month found similar concerns 
exist for an $89 million cash transfer program initiated 
earlier this year. My questions are: How will you address such 
findings as Ambassador? What options do you have in altering or 
ending programs that fail to live up to our expectations?
    And second, while the administration is emphasizing greater 
flows through host country institutions, how prepared are the 
Pakistanis to partner with us on the effective expenditure of 
those funds? While the goal of achieving such cooperation and 
oversight is laudable, shouldn't we continue to work mostly 
with transparent aid organizations familiar with the region 
that they are in?
    Ambassador Munter. Thank you, sir.
    This gets to the heart of the difficulty of implementing 
the generosity of KLB. And you are right that what the 
inspectors have talked about is something that the Embassy is 
very aware of. And I pledge that if I am confirmed, I will 
certainly spend enormous amount of time with AID to make sure 
that we get a handle on how the aid is being disbursed and how 
we can oversee it.
    One item will be that we will continue to have an 
assistance coordinator at the Embassy. That position will 
remain. In my experience in Baghdad, I felt that this was 
something that in the embassies that have a large aid 
portfolio, it is crucial that we have someone who is 
coordinating and keeping track of all of the technical 
questions that people are following.
    Similarly, I think that we will see, now that the AID 
mission has come up to full staffing and has gotten some new 
leadership, that their plans to address the questions of the 
weakness or perceived weakness of the Pakistanis in getting aid 
out can be addressed through such mechanisms as the preaward 
assessments, the insistence that either the institution or the 
ministry has proper auditing facilities, and, if not, that we 
will actually supply that auditing and that we will do 
comprehensive reviews.
    We will keep the IGs there. The State IG and the AID IGs 
play an important role in watching over these issues. And I 
would say that I am optimistic that what my predecessors, what 
Anne Patterson and her team have built over this last year in 
adjusting to the first wave, if you will, of Kerry-Lugar-Berman 
has set the stage for a regime for transparency that, though I 
don't yet know the details, not being at post, but if I am 
confirmed, I will look into this and make sure that we have--we 
can give you confidence that these kinds of questions about aid 
are answered.
    Senator Lugar. My second set of questions you have 
partially answered. I wanted to talk about the Embassy's 
organization for assistance. The creation of the position of 
coordinator of economic assistance within the country team has 
led to a situation where the longstanding role of USAID as the 
lead on development has been modified.
    Now this structure has been used in war zones, such as Iraq 
and Afghanistan, as you are aware. You have already said you 
would sustain the coordinator position for Pakistan, and you 
also indicated, and I was going to ask, what role you envision 
for the mission director and the USAID mission. I would also 
like to ask, Who coordinates with the Office of the Defense 
Representative within the Embassy?
    Ambassador Munter. I believe that the person who should 
pull this together on all assistance, the strategic view of 
assistance and the transparency and implementation, should be 
the strategic--should be the assistance coordinator. That means 
there would be a team, a cross-cutting team under her direction 
that would include the people from the ODRC, from the military, 
that would include the AID team.
    This is not meant to clip the wings of AID. And my 
experience in Baghdad and my experience talking with Mr. Shah 
at AID, we want to make that very clear. AID has 
extraordinarily important role, has skills that no one else in 
the embassy does. The point here is not to tell them what to 
do. The point is to make sure that everyone understands and 
everyone consistently follows the strategic guidelines that are 
not only applied to those specific AID tasks, but throughout 
the mission.
    Senator Lugar. Well, we are counting on you from your 
experience with such situations in other countries to 
understand how this country team has to have a very special 
organizational structure for the crisis situation that we face 
in Pakistan. I think you have outlined a very reasonable 
approach to this, but I raised the question simply because this 
committee, obviously, will be tremendously interested in how 
all of this works and your subsequent reports as to how the 
country team incorporated each of these elements.
    Now I would also like to inquire with regard to post-flood 
assistance. Humanitarian assistance is responsive and has 
proven effective in delivering needed relief to crisis zones. 
Development assistance is the key foreign policy tool designed 
to have a greater degree of scrutiny and far-reaching impact.
    How does the administration and how will you as Ambassador 
consider the Kerry-Lugar-Berman resources in light of the 
competing humanitarian and recovery needs that face Pakistan 
this year? What priorities and what purposes do you see as you 
review some of the existing programs and plans?
    Second, the United States response to the 2005 Pakistan 
earthquake was through humanitarian resources. Are the short-
term public-relations gains of the 2005 earthquake response 
sufficient to warrant the use of development funds for 
humanitarian purposes?
    And finally, crisis response zones make it increasingly 
difficult to monitor the use of assistance. How will strict 
oversight parameters outlined in the Kerry-Lugar-Berman 
legislation be maintained in this post-flood environment? In 
other words, describe the current situation, the flood and that 
which precedes, but likewise, interrelationship with the 
development cost, the thing we have just discussed with the 
country team and the coordinator monitoring.
    Ambassador Munter. It is a complex task. And if I am 
confirmed, it will be something that--I will be honest with 
you--I will have a great deal to learn from the experts who are 
there. But what we have in mind is to be rigorous in our 
understanding of the three phases that we are facing--the 
relief phase, the recovery, and then the reconstruction.
    Obviously, we never want to lose sight of the fact that 
Kerry-Lugar-Berman funds, the intent of the authors--and I 
don't mean to tell the authors what their intent was--but that 
the intent, obviously, is long term. That is to say these are 
not band-aids.
    In this first phase, the AID funding generally and the 
funds that we use for humanitarian work have generally been 
sufficient. We have generally out of the kind of the funds that 
we have cited in, I think, all of our prepared remarks--that 
has been OTI, other kinds of AID funding--that has been very 
effective.
    Inasmuch as there is a use for Kerry-Lugar-Berman funds 
that would address the floods, it would be my guidance to the 
team that I have described to you that that use would be only 
in preparing, in addressing the needs of the flood to prepare 
for more effective use of the long-term projects.
    To give an example, if we have a project that involves 
making irrigation ditches more effective and if, as we know, 
the irrigation ditches about which we spoke maybe 6 months ago 
are gone, we have some choices in the immediate relief and in 
the reconstruction and in recovery to address how we deal with 
bringing things back to status quo ante.
    And if we do it in a way that leads to more effective use 
in the long runs of irrigation projects, I would consider that 
legitimate to have a discussion about using Kerry-Lugar-Berman 
funding, because it is not just replacing something. It is 
building a recovery that has a long-term perspective. So that 
kind of strategic guidance is what I would have in mind there.
    Now, the priorities--we have a very ambitious strategic 
dialogue that goes into so many areas and uses that applies the 
funds that Kerry-Lugar-Berman have given us, 13 areas of 
strategic dialogue, all of which are important.
    I think that we are going to have to do some prioritizing, 
and I think that the reason for that is that things like 
health, things like agriculture, things like infrastructure 
repair are going to be things we need to do quickly. We have to 
have impact. And this, to me, circles back again to our public 
diplomacy question.
    What are those things that will be most recognized by the 
Pakistanis so that if, for example, we are rebuilding the 
bridges that have been swept out of the Swat Valley, that those 
bridges are there quickly and that those bridges are recognized 
as something America has done for the country?
    That is to say, it is all part of an attempt to build, and 
through the relief and perhaps through the use of Kerry-Lugar-
Berman funds, for the long-term goal of meeting the needs of 
the Pakistani people, but also meeting the needs of 
understanding in the public sphere what we are doing. So that 
is how some of the priorities might change somewhat from where 
they were 6 months ago.
    And as for the oversight, once again, I am hoping that in 
our assessment of how the assistance coordinator and AID work 
with me, but also work with our military colleagues, who are 
also engaged in some of these questions, that it is consistent 
and clear to you, and better be clear to me.
    Thank you.
    Senator Lugar. I thank you for that comprehensive answer. 
My time has expired, but I will add one footnote.
    Dr. Peter Armacost, who is the president of Lahore 
Christian College, is a personal friend. He was formerly 
president of Eckerd College in Florida and courageously headed 
out to Lahore, where he has been now for 6 years. A lot of my 
insight as to what is occurring there has come through Dr. 
Armacost.
    But I mentioned that university because it does seem to me 
to offer a potential business plan for progress in higher 
education in which Muslim students, Christian students, others, 
from across the entire country, have gathered together, I 
believe, with a student body of 4,000 or 5,000 students and had 
an impact. I would just draw that to your attention, to that 
effective platform, as an area of potential where I know that 
there is some work with the Embassy now.
    Thank you very much, Mr. Chairman.
    Ambassador Munter. And thank you. And believe me, in the 
notion of outreach, we certainly don't want to limit that 
simply to government, though that is important. But that these 
institutions, and especially institutions of higher learning, 
this is a potential area for great cooperation for us to learn 
and for us to implement what you have laid out in Kerry-Lugar-
Berman with really good partners who know their way around. So, 
thank you.
    Senator Lugar. Thank you.
    Senator Casey. Thank you, Senator Lugar.
    We are joined by our ranking member of the subcommittee, 
Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Munter, can you help enlighten me about America's 
reputation in Pakistan, what they think of us, what kind of an 
appreciation they have? I have read the polling materials, 
which really aren't very encouraging, to say the least.
    Do they have even a modicum of understanding that what we 
are doing for them, whether it be building bridges in the Swat 
Valley or what have you, that we are encumbering our kids' and 
our grandkids' future, that we don't have any money anymore? 
This Government is going to borrow 41 cents out of every dollar 
it spends this year.
    And I mean this is a real sacrifice Americans are making, 
and they are sacrificing their children's and grandchildren's 
future in order to build infrastructure in Pakistan. Do they 
have even a modicum of appreciation for what Americans are 
doing for them?
    Ambassador Munter. I think this, as we noted earlier, is a 
vital question because, in general terms--and I am speaking of 
someone who has not yet come to post and, if confirmed, I will 
try to verify this--I don't think it is a question that they 
don't know what we are doing. The question is the skepticism of 
why we are doing it and what our goals are and what our 
relationship is.
    I think the historical experience of America and Pakistan 
indicates that there have been times of mistrust. And we are--
at this point, with our generous help to Pakistan, which we 
understand to be in the interests of both countries, we are 
perhaps not doing as well as we might in understanding the 
impact of that past and that idea in the mind of Pakistanis 
when we see these aggregate figures of popularity, 17 percent 
of the people positive, and skepticism about the American 
assistance.
    So the task, I think is to make sure that we are honest, 
open, and clear, as Senator Lugar has said, about the process, 
that it is understood to be a straightforward and honest 
process in investing this money and that it is understood why 
we are doing it, and that we understand and we are able to 
articulate to Americans that the reason this is taking time is 
because of the historical skepticism.
    Whether or not they are right, the question is there are 
many who are skeptical about our motives. And we at the Embassy 
have to explain, perhaps in better ways, or engage with our 
friends to explain for us--our friends from academia, our 
friends from the business community--to explain on our behalf 
why the Americans are being so generous, why we are taking on 
this task, which is a big burden for America, an enormous 
burden for America.
    That is the task of this public diplomacy to which I 
alluded at the very beginning of this session that we need to 
do better to engage them so that this question becomes easier 
for us to understand. So that they are able to say, ``I get it. 
I see why you are doing this,'' and build trust. And that 
trust, I think, will ultimately reflect itself in these public 
figures.
    But this is a long and very, very complex issue. And I wish 
I had an easier answer, and I understand the frustration of the 
American people and the American Congress. And yet, this is 
something that we have to solve through painstaking engagement 
all across Pakistani society.
    Senator Risch. Well, thank you, Mr. Munter.
    And I mean, it is human nature that people like to see some 
kind of appreciation for the sacrifices that they are making. 
And perhaps when you are there, in order to diminish the fear 
of the motives and what have you, if they have a clearer 
understanding of the sacrifice this is. I mean, this is--you 
know, we don't have any money anymore. It is gone. We are 
spending our kids' and our grandkids' money.
    And certainly, they are human beings like we are, and they 
understand when you are encumbering your kids' and your 
grandkids' future, what a sacrifice that is and what level that 
rises to as far as sacrifice is concerned. So perhaps that will 
help, as you move forward, to convince them that our 
motivations are what they are.
    Thank you, Mr. Chairman.
    Ambassador Munter. Thank you.
    And I don't have a higher priority than addressing that 
issue because I know it is at the root of our relationship with 
Pakistan. Thank you.
    Senator Casey. Thank you, Senator Risch.
    I wanted to raise a question about religious freedom. 
Before I do that, I wanted to go back for a moment to the 
ammonium nitrate question. When we passed a resolution through 
the Senate by consent--and as anyone who follows the Senate 
knows, that doesn't happen very often, unless it is something 
that is often of not great significance. So to do something as 
significant as getting an ammonium nitrate resolution through 
was a great achievement, but it was bipartisan, a bipartisan 
resolution.
    And I wanted to highlight that because it is something--as 
I said before, I have raised this issue with everyone who will 
listen, spoken a number of times both, you know, from the chair 
that I sit on the committee, to Ambassador Holbrooke, and he 
has worked very hard on this, in addition to those--the many 
other administration officials, starting with the very top at 
the State Department, Secretary Clinton and others.
    But I would ask you, when you are--and I believe you will 
be--confirmed, but upon confirmation, when you are on the 
ground, to use that resolution as a guide. It is not a 
comprehensive list of strategies or methods to make progress on 
getting legislation passed on ammonium nitrate, but if you want 
to get a sense of what the Congress is most concerned about--
and I believe, by extension, the American people--is that we 
want to take--or make, I should say, every effort by the State 
Department, by the Congress, by any means necessary to get 
legislation passed on ammonium nitrate so it doesn't keep 
killing our soldiers, and regulation and enforcement. A law is 
no good if it won't be enforced. So I would just ask you to use 
that resolution as a guide.
    As it relates to religious freedom, in July, Pakistan's 
federal minister for minority affairs, Shahbaz Bhatti, 
established a national interfaith council to promote 
understanding and tolerance among different faiths in Pakistan. 
Such efforts can help lead to a more stable Pakistan, and I 
think that is self-evident not only in that country, but in any 
country.
    And even more urgently needed, given the devastation caused 
by the flood, the statement issued directly after the council 
met urged increased tolerance and denounced terrorism and was 
signed by Pakistan's leading religious figures--the four 
principal imams, the heads of its principal madrassas, the 
leading Catholic and Protestant bishops, and the leaders of the 
Ahmadi, Buddhist, and Farsi communities. That is a pretty 
comprehensive list of faith leaders.
    In conversations I had with him earlier this year--I am 
talking about Mr. Bhatti--detailing how promoting interfaith 
understanding can help win the hearts and minds of Pakistanis 
and pull them away from extremist groups, his work with the 
council and other initiatives present a unique opportunity for 
the U.S. to support Pakistani initiatives that is critical to 
our efforts to promote human rights and democracy and, 
obviously, has national security implications.
    I would ask you how, if you are confirmed, you would 
partner with Mr. Bhatti and others to do everything possible to 
further and advance that important work on interfaith dialogue 
and interfaith efforts to put in place better understanding 
between faiths that I know will have good results if we are 
successful with advancing it?
    Ambassador Munter. Well, I agree absolutely with what you 
said, that this is an enormous opportunity that we have to 
support. My understanding is that the Embassy, led by 
Ambassador Patterson, is in close touch with Mr. Bhatti and, 
indeed, that when we have visits from senior American figures, 
both from the Senate, from the Congress, but also from the 
executive branch, we make a point of hearing his opinion and 
those people around him.
    Now, he is not only engaged in the interfaith dialogue, but 
from his ministry, which does focus primarily on Christian-
Jewish-Hindu areas, there are other faiths that need to be 
brought into even greater focus in our concerns, our interests. 
That is the question about the Ahmadis, who are the victims of 
violence even this year, the question of the Buddhists, Farsis, 
the others, for whom there is not only the question of 
tolerance and freedom, but the respect for their heritage and 
sites in the country that we also believe and supported.
    I think that inasmuch as we can support him, inasmuch as we 
can support the interfaith dialogue, and inasmuch as we--
through this outreach that I was describing, getting more to 
the constituent parts of Pakistan--can identify even more 
partners not only at the high levels, but for our young 
officers as well, it has got to be a key element that we have. 
And this is where I think the diversity of Pakistan finds a 
certain resonance with the diversity of the United States.
    I think we can have a dialogue that gets past some of these 
elements that I talked about, the skepticism about the past, to 
find those kinds of similarities that we have and to find among 
these kinds of partners the commitment to interfaith 
reconciliation can only help us in our long-term cultural 
counterpart to the economic help that we are giving them as 
well.
    Senator Casey. I was recalling, as you were answering, that 
one of the best moments I had in my last visit there--this 
would be August of 2009. I think it was our last--a last part 
of our schedule before we got up the next morning to leave--was 
an interfaith dinner with folks who had been laboring through 
Ramadan.
    And what a remarkable faith tradition that makes it 
possible for people to express the tenets of their faith 
through fasting. And we were able to talk in a very 
constructive way with a cross section of faiths at that dinner. 
So it was a real highlight. And something that doesn't get in 
the newspaper very often, the way that there is an interfaith 
dialogue, a foundation there. And I think we can foster and 
amplify that.
    Let me ask you one more question in this area of religious 
freedom. The U.S. Commission on International Religious Freedom 
has recommended that Pakistan be designated a ``country of 
particular concern'' for the systemic, ongoing, and egregious 
violations of religious freedom. The country's blasphemy law 
carries the death penalty. It requires no evidence and has been 
repeatedly used against minority religious groups and also 
against Muslims viewed as breaking with certain orthodoxies.
    Pakistan has aggressively pushed a so-called ``defamation 
of religions'' resolution at the United Nations. This 
resolution is essentially an attempt to internationalize 
blasphemy laws. It would undercut international norms on the 
freedoms of religion and expression.
    Taking all of this into account and comparing Pakistan's 
conduct with other countries currently listed as countries of 
particular concern by the State Department, Pakistan meets the 
criteria and is a glaring omission. What is your view of this 
part of the religious freedom discussion and debate? And how 
can the United States do more to improve conditions in the 
country as it relates to this particular concern about the 
blasphemy resolutions and the violations of religious freedom?
    Ambassador Munter. In the specific issue, we have always 
gone to the Pakistani Government and to the Pakistani public 
that we believe that any restriction on press freedom serves no 
purpose, that it doesn't help achieve a goal. In fact, it does 
the opposite. We weight it many times against the restrictions 
of the blasphemy law.
    I will have to check for you on the reasons for the ranking 
of Pakistan in the religious freedom report and get back to you 
on that. I can only say that everything I understand about what 
the Embassy is doing now puts the blasphemy law and other 
issues of religious and minority freedom on the agenda always 
in meeting with the leaders of the country. I certainly plan to 
continue that. And on that specific question, I will look into 
that and let you know.
    Senator Casey. Thank you.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, I have just one further 
question.
    We have, from time to time, lamented the work of A.Q. Khan 
and his work with others, for that matter, to spread the 
technology of nuclear weapons and potential for difficulty this 
entails in a host of countries. My understanding is that he is 
free of house arrest now, and is still considered in heroic 
status in Pakistan.
    We have dealt today essentially with questions regarding 
economics, politics, and the development of civil society. But 
a very large part of the relationship that the United States 
has with Pakistan and, in that matter, with other countries, 
frequently comes down to nonproliferation, or at least the 
inventory and control of weapons of mass destruction. This is 
because proliferation has the potential to create violence not 
only for the specific countries involved, but in others who may 
feel threatened by this state of affairs and wish for defenses 
and international regulation.
    This is a question which is entirely speculative, but one 
which I suspect that you are prepared to attempt to address 
through work with the Pakistani Government. As the rest of the 
world comes to conferences, such as we just had in Washington 
this time on nonproliferation, countries pledged to, in 
essence, ship back various weapons or materials in a manner 
fully transparent with the other countries. Such pledges at the 
conference were made so that the world might be safer, as 
opposed to there being questions of security if proliferation 
occurs.
    Now, have you given any thought to this general area? And 
what kind of thoughts or response can you give as part of this 
hearing?
    Ambassador Munter. Here, I don't think we have made a lot 
of progress with the Pakistanis. And I intend to raise the 
question again of our repeated requests to have our people be 
able to interview Mr. Khan. And the point being that we are 
trying to communicate the idea that this is an issue that is an 
issue for everyone, not just an American favor asked of 
Pakistan, but something that American-Pakistani partnership, if 
we are able to build it, this must be a part of it as well.
    In addition, the fissile material control treaty, which is, 
in fact, being blocked at certain times or certainly is being 
held back by the Pakistanis, this is not something that we 
think makes sense. We urge them to be constructive in this 
area, once again, not because they are doing it for us in a 
transactional way, but because this is something that is of 
interest to everyone in the world, not just Americans, but the 
international community and Pakistan itself.
    If confirmed, I will address this. But again, I think this 
is going to be a very tall order. I think we have had real 
difficulties on this in the past. But we have got to stay on 
it.
    Senator Lugar. Well, I thank you for that statement and 
your preparation, as you say, for a very tall order.
    Ambassador Munter. Thank you.
    Senator Lugar. And I congratulate you on your testimony 
today and look forward to supporting your nomination. We are 
hopeful that you and your wife will be able to serve with 
safety to your persons and likewise with the full confidence of 
this country behind you.
    Ambassador Munter. Thank you.
    Senator Casey. Let me reiterate and associate myself with 
what Senator Lugar just said. We are grateful for the effort 
you are putting forth to continue your public service, and we 
look forward to your confirmation as Ambassador. We have lots 
more questions, but we are out of time.
    But thank you so much for being here today. We will try to 
move as fast as we can to get this confirmation completed.
    Ambassador Munter. I am grateful, and I look forward not 
only to working with you here, but to see you out in the field 
as well.
    Senator Casey. Thank you.
    This hearing is adjourned.
    [Whereupon, at 10:58 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


     Responses of Ambassador-Designate Cameron Munter to Questions
                Submitted by Senator Russell D. Feingold

    Question. In your view, how can the United States and other 
regional partners work to help Pakistan and India make improvements in 
their bilateral relationship, which are not only in their interest, but 
in the interest of broader regional stability? What do you see as the 
prospects for improved relations between these two nations during your 
term, if confirmed?

    Answer. We have strong bilateral relations with India and Pakistan 
that are based on interests we share with each country. Good relations 
with either country do not come at the expense of good relations with 
the other. If confirmed, I look forward to meeting with Ambassador 
Roemer, U.S. Ambassador to India, to discuss this issue going forward.
    Ultimately, it is up to India and Pakistan to set the pace and 
parameters for improving their relations. We look forward to the day 
when India and Pakistan enjoy friendly, neighborly relations and 
believe both India and Pakistan have an important role to play in 
stability and security of South Asia. We are engaged with both 
countries, and encourage them to work together to bring peace to their 
region.
    We applaud the Indian and Pakistani governments for holding talks 
this year and encourage future meetings. We are pleased that their 
Prime Ministers met formally at the SAARC summit in Bhutan this April 
(we understand that their previous meeting dated back to July 2009), 
followed by meetings of the Foreign Secretaries and Home Ministers in 
June and Foreign Ministers meeting this July.

    Question. It has been our strategy for several years to increase 
aid to Pakistan in the hopes that it will begin to consistently address 
all of the militant groups in the country but it has not done so. At 
what point should we pursue a new strategy to address this problem and 
what ideas do you have for new approaches?

    Answer. The highest U.S. priority in both Afghanistan and Pakistan 
is defeating and destroying al-Qaeda and other terrorist groups, and 
eliminating extremist safe havens in Pakistan. Implementing this policy 
in Pakistan requires three distinct but mutually reinforcing elements:

  <bullet> Short-term stabilization, to include humanitarian relief and 
        immediate assistance to conflict- and flood-affected areas.
  <bullet> Security assistance that builds the capacity of the 
        Pakistani military to conduct counterinsurgency operations and 
        strengthens civilian law enforcement capabilities.
  <bullet> Medium- and long-term development and security assistance 
        programs that create the foundation for a stable economy that 
        provides jobs and supports a strong, moderate, competent 
        government that exercises control across all of its territory 
        and is responsive to its people.

    The success of these efforts will depend heavily on our ability to 
build a sustainable strategic partnership with the Government of 
Pakistan and the Pakistani people. Over the past year, the 
administration has made significant progress in building the foundation 
for a stronger partnership through the U.S.-Pakistan Strategic Dialogue 
and other hands-on efforts to directly engage Pakistani leaders and the 
general population.

    Question. According to our intelligence community, instability in 
Pakistan is driven primarily by poor governance and lack of 
socioeconomic reform. Efforts to encourage Pakistan to address these 
issues are therefore critical to our success in the region.

  <bullet> How would you assess progress in this area and how can we 
        work with various partners in Pakistan to prevent militant 
        elements from taking greater advantage of the current crisis 
        generated by the floods?

    Answer. Over the past year we have made great strides in expanding 
our relationship with Pakistan beyond security issues. We are engaged 
in an active dialogue with the Pakistanis, the international community 
and the Pakistani diaspora to help the Pakistani people overcome the 
political, economic, and security challenges that threaten Pakistan's 
future and undermine regional stability.
    Our civilian assistance strategy is focused directly building the 
Pakistani Government's capacity to address the basic needs of its 
people, and to provide improved economic opportunities to engender a 
more stable and prosperous nation. The recent humanitarian disaster 
caused by the floods has added a tremendous challenge for the country. 
We can only prevent militant groups from taking greater advantage of 
the current crisis if we make sure that there is as little room as 
possible for anyone else who tries to exploit the desperate needs of so 
many people. For this, we need to be present and visible over the long-
term.
    We have to ensure that the Pakistani people understand that we are 
in there for the long haul and that our engagement with their 
government goes beyond just security cooperation. We can do this by 
working with the Government of Pakistan and our implementing partners 
on the ground to provide assistance that betters the lives of 
Pakistanis affected by the flood. We must also improve upon our ability 
to communicate effectively with the Pakistani people to get the message 
out about our assistance and help build the relationship over the long 
term. This is a significant challenge, and a top priority for me, if I 
am confirmed.

  <bullet> With respect to the floods, are you satisfied that there has 
        been equal access to aid across the populace?

    Answer. We are monitoring the situation as closely as possible in 
order to make sure that assistance is distributed in an equitable 
manner. In addition, the Government of Pakistan has set up a commission 
to oversee the equitable distribution of aid within the country and 
ensure transparency with the international donor community. While the 
exact mechanisms and authorities of this commission remain to be 
defined, we continue to work with the civilian administration in 
Pakistan to address concerns of accountability and transparency related 
to assistance.

    Question. There is broad agreement that a major source of 
discontent in Pakistan is lack of access to justice. The Kerry-Lugar-
Berman bill sought to address this by requiring assistance for civilian 
law enforcement. The Kerry-Lugar money was intended to train police 
officers to do criminal investigations that will enhance access to 
justice, not to train police officers to perform as an extension of the 
military, but I am concerned that this is not being implemented as 
intended. If you are confirmed, will you commit to reviewing this issue 
and reporting back to me?

    Answer. In keeping with the Afghanistan-Pakistan Regional 
Stabilization Strategy, our law enforcement assistance in Pakistan 
focuses on building capacity in areas most affected by the insurgency: 
Khyber-Pakhtunkwa (KPk) and the Federally Administered Tribal Areas 
(FATA). To achieve this objective, in 2009, the Bureau for 
International Narcotics and Law Enforcement (INL) commenced a new 
training effort in KPk enabling its police to prevent and respond to 
insurgency-related incidents, including suicide bombings, improvised 
explosive device IEDs detonations, kidnappings and targeted killings in 
addition to the traditional tenants of civilian policing, such as human 
rights, investigative skills and community policing.
    Also, INL is working to strengthen the capacity of the FATA tribal 
Levies by providing police skills training and equipment, as well as 
``hard police'' training to enhance their response to volatile security 
situations.
    Improved performance of civilian law enforcement in these regions 
is critical to the long-term success of the Pakistan military's 
counterinsurgency effort and will also bolster public confidence in 
civilian institutions.

    Question. Religious freedom is a noted problem in Pakistan, and 
according to the most recent State Department report, serious problems 
remain, including that ``[d]iscriminatory legislation and the 
Government's failure to take action against societal forces hostile to 
those who practice a different religious belief fostered religious 
intolerance, acts of violence, and intimidation against religious 
minorities.'' This has been of particular concern to Ahmadiyya Muslim 
communities in the United States, including my constituents.

  <bullet> If confirmed, how would you work to underscore the 
        importance of religious freedom and other human rights issues 
        with the Pakistani Government?

    Answer. We remain deeply concerned about the treatment of all 
religious minorities in Pakistan, including Ahmadis. The close 
monitoring of the human rights situation in Pakistan is one of our 
highest priorities. In our discussions at all levels with the 
Government of Pakistan (GOP) as well as with members of the Pakistani 
civil society we underline the importance of equal protection of every 
Pakistani citizen.
    That is especially true with regard to religious freedom. Although 
the GOP has undertaken some steps in order to enhance the situation of 
religious minorities, more can be done. Pakistan's Constitution states 
that adequate provisions are to be made for Muslim and non-Muslim 
minorities to profess and practice their religious beliefs freely. 
However, Pakistan's ``blasphemy laws'' are often used to justify acts 
of violence and intimidation against religious minorities as well as 
against Muslims who hold minority views, such as the Ahmadiyya 
community. As stated in our ``Annual Report on International Religious 
Freedom'' and ``Country Report on Human Rights Practices,'' while the 
Government of Pakistan has taken steps to improve the treatment of 
religious minorities, serious religious freedom concerns remain. The 
Department of State considers Pakistan's blasphemy and anti-Ahmadi laws 
discriminatory.
    If confirmed, I will continue to raise concerns with the GOP about 
this discriminatory legislation and call on the GOP to expand its 
efforts to grant protection especially to those within the Pakistani 
society who need it the most. In addition, we need to maintain a robust 
dialogue with those religious leaders, teachers, and other people 
within Pakistani civil society who can serve as multipliers for 
promoting peace and tolerance in order to ensure better protection of 
the fundamental rights of every Pakistani citizen.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
